  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




    MEDICARE IMPROPERLY PAID
PROVIDERS MILLIONS OF DOLLARS FOR
 INCARCERATED BENEFICIARIES WHO
  RECEIVED SERVICES DURING 2009
          THROUGH 2011


    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                    Daniel R. Levinson
                                                     Inspector General

                                                       January 2013
                                                       A-07-12-01113
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over, people with disabilities, and people with permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS), which administers the
program, contracts with Medicare contractors to process and pay Medicare Part A and Part B
claims submitted by health care providers.

Under Federal requirements, Medicare generally does not pay for services rendered to
incarcerated beneficiaries. Federal requirements, however, allow Medicare payment if State or
local law requires incarcerated beneficiaries to repay the cost of medical services. Health care
providers indicate this exception by placing a specific code on the claims submitted for payment.
We refer to this code as “exception code.”

The Social Security Administration (SSA) is CMS’s primary source of information about
incarcerated beneficiaries. Generally, SSA collects information, such as the names of
beneficiaries and the dates on which beneficiaries begin and/or end periods of incarceration,
directly from penal authorities. SSA also collects incarceration end dates from beneficiaries’
requests for reinstatement of Social Security benefits.

CMS’s records identified 135,805 Medicare beneficiaries who had been incarcerated at some
point during calendar years (CY) 2009 through 2011. We limited our review to 75,639 claims on
behalf of 11,619 incarcerated beneficiaries with $33,587,634 in associated Medicare payments.

OBJECTIVE

Our objective was to determine whether CMS had adequate controls to prevent and detect
improper payments for Medicare services rendered to incarcerated beneficiaries.

SUMMARY OF FINDINGS

When CMS’s data systems indicated at the time that a claim was processed that a beneficiary
was incarcerated, CMS’s controls were adequate to prevent payment for Medicare services.
Specifically, CMS had a prepayment edit that flagged claims so that Medicare contractors could
deny payments to providers when the incarceration dates and the dates of service on the claims
overlapped.

When CMS’s data systems did not indicate until after a claim had been processed that a
beneficiary was incarcerated, CMS’s controls were not adequate to detect and recoup the
improper payment. CMS will not always receive timely updates regarding incarceration
information before Medicare contractors pay providers on behalf of incarcerated beneficiaries,
and accordingly, Medicare payments totaling $33,587,634 were made to providers for services
rendered to 11,619 incarcerated beneficiaries during CYs 2009 through 2011. CMS did not have
policies and procedures to review incarceration information on a postpayment basis that would



                                                i
have detected improper payments that the prepayment edit could not prevent. Consequently,
CMS did not notify the contractors to recoup any of the $33,587,634 in improper payments.

CMS allowed Medicare contractors to follow varying policies when processing claims with
exception codes for payment. In one instance, a contractor approved claims with exception
codes that another contractor would have denied. Therefore, providers also had varying
procedures regarding the use of exception codes when submitting claims for payment. For
example, some providers submitted claims without the exception codes, even though they knew
through sources other than CMS that the beneficiaries were incarcerated and that the
requirements for the exception codes had been met. If CMS implements a postpayment edit but
does not also standardize the claims-processing policies for contractors to follow, some providers
will then have to resubmit the claims with the exception codes added, which would create
inefficiencies and time delays at both the provider and contractor levels.

RECOMMENDATIONS

We recommend that CMS:

    •   ensure that Medicare contractors recoup the $33,587,634 in improper payments;

    •   implement policies and procedures to detect and recoup improper payments made for
        Medicare services rendered to incarcerated beneficiaries when incarceration information
        is received on previously paid Medicare claims;

    •   identify improper payments made on behalf of incarcerated beneficiaries after our audit
        period but before implementation of policies and procedures and ensure that Medicare
        contractors recoup those payments;

    •   work with other entities, including SSA, to identify ways to improve the timeliness with
        which CMS receives incarceration information before Medicare contractors pay
        providers on behalf of incarcerated beneficiaries; and

    •   work with the Medicare contractors to ensure that all claims with exception codes are
        processed consistently and pursuant to Federal requirements.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, CMS concurred with three of our recommendations.
CMS stated that in April 2013 it plans to implement a process for detecting and recouping
improper payments for previously paid Medicare claims.

CMS partially concurred with our recommendation regarding the recoupment of the $33,587,634
in improper payments. CMS stated that it is committed to recovering overpayments we
identified, but it must take into account the cost benefit of recoupment activities, including
potential appeal costs and the cost of manually reopening these claims.


                                                ii
After providing its comments, CMS advised us that it had initiated recovery actions for CY 2009
claims and that it would shortly begin to recoup improper payments for CY 2010 and 2011
claims as well. We acknowledge that CMS must take into account the cost benefit for
recoupment activities. We encourage CMS to continue to recover these improper payments in
accordance with its policies and procedures.

CMS did not concur with our last recommendation, adding that it was not able to fully
understand the issue or fully evaluate this recommendation. CMS requested greater specificity
regarding our findings concerning inconsistencies in contractor policies for the processing of
claims with exception codes. After receiving CMS’s comments, we gave CMS the detailed
information that it had requested.




                                               iii
                                                 TABLE OF CONTENTS

                                                                                                                             Page

INTRODUCTION ................................................................................................................. 1

      BACKGROUND ............................................................................................................. 1
            Medicare Program ............................................................................................ 1
            Medicare Payments on Behalf of Incarcerated Beneficiaries .......................... 1
            Obtaining Information for Incarcerated Beneficiaries .................................... 2

      OBJECTIVE, SCOPE, AND METHODOLOGY .......................................................... 2
             Objective .......................................................................................................... 2
             Scope................................................................................................................ 2
             Methodology .................................................................................................... 2

FINDINGS AND RECOMMENDATIONS ....................................................................... 3

      WHEN THE CENTERS FOR MEDICARE & MEDICAID SERVICES
       RECEIVED INCARCERATION INFORMATION BEFORE CLAIMS
       WERE PAID, IT HAD CONTROLS TO PREVENT IMPROPER PAYMENTS .... 4

      WHEN THE CENTERS FOR MEDICARE & MEDICAID SERVICES
       RECEIVED INCARCERATION INFORMATION AFTER CLAIMS
       WERE PAID, IT DID NOT HAVE CONTROLS TO DETECT
       AND RECOUP IMPROPER PAYMENTS................................................................ 4
            Federal Requirements ...................................................................................... 4
            Improper Payments Not Detected ................................................................... 5
            The Centers for Medicare & Medicaid Services Did Not Have
               Policies and Procedures To Detect and Recoup Improper Payments
               on a Postpayment Basis .............................................................................. 6
            Improper Payments on Behalf of Incarcerated Beneficiaries
               Remained Uncollected ................................................................................ 6

      INCONSISTENCIES IN POLICIES FOR PROCESSING CLAIMS WOULD
        LEAD TO INEFFICIENCIES IN CLAIMS SUBMISSION PROCESS ................... 6
             Federal Requirements ...................................................................................... 6
             Inconsistent Policies for Processing of Claims for
                Incarcerated Beneficiaries ........................................................................... 7
             Inefficiencies at Provider Level in Claims Submission Process ...................... 7

      RECOMMENDATIONS ................................................................................................. 7




                                                                   iv
  CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS AND
    OFFICE OF INSPECTOR GENERAL RESPONSE ................................................. 8
         Recoupment of Improper Payments ................................................................ 8
         Consistent Processing of Claims With Exception Codes ................................ 9
         Provider Access to Incarceration Information ................................................. 9

APPENDIX

     CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                     v
                                               INTRODUCTION

BACKGROUND

Medicare Program

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over, people with disabilities, and people with
permanent kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers
the program. Medicare Part A provides inpatient hospital insurance benefits and coverage of
extended care services for patients after hospital discharge. Medicare Part B provides
supplementary medical insurance for medical and other health services, including coverage of
hospital outpatient services. CMS contracts with Medicare contractors to, among other things,
process and pay claims submitted by hospitals, physicians, and suppliers. For this report, we
refer to all Medicare Part A and Part B entities or individuals receiving Medicare payments as
“providers.”

Medicare Payments on Behalf of Incarcerated Beneficiaries

Pursuant to section 1862 of the Act and Federal requirements, Medicare generally does not pay
for services rendered to incarcerated beneficiaries. 1 Federal regulations (42 CFR § 411.4(b))
define individuals who are in custody of a governmental entity as including, but not limited to,
“… individuals who are under arrest, incarcerated, imprisoned, escaped from confinement, under
supervised release, on medical furlough, required to reside in mental health facilities, required to
reside in halfway houses, required to live under home detention, or confined completely or
partially in any way under a penal statute or rule.” For this report, we refer to individuals in any
of these circumstances as “incarcerated.”

Chapter 1, section 10.4, of CMS’s Medicare Claims Processing Manual explains further:

         CMS presumes that a State or local government that has custody of a Medicare
         beneficiary under a penal statute has a financial obligation to pay for the cost of
         healthcare items and services. Therefore, Medicare’s policy is to deny payment
         for items and services furnished to beneficiaries in State or local government
         custody.

Federal regulations (42 CFR § 411.4(b)), however, allow Medicare payment if State or local
law requires incarcerated beneficiaries to repay the costs of medical services and the State or
local government enforces the requirement. CMS requires providers to indicate claims that
meet this exception by placing a specific code on them. We refer to this code as “exception
code.” CMS has instructed the Medicare contractors to review, on a sample basis, claims with
the exception code to verify that the requirements have been met.

1
  In certain instances, the providers are aware that an individual is incarcerated because the individual is
accompanied by a penal facility official and/or is under physical restraint. In other instances, though, providers may
not be aware that an individual is incarcerated. For example, individuals who are residing in halfway houses or
living under home detention may not be readily recognizable as incarcerated.

                                                          1
Obtaining Information for Incarcerated Beneficiaries

The Social Security Administration (SSA) is CMS’s primary source of information about
incarcerated beneficiaries. Generally, SSA collects information, such as the names of
beneficiaries and the dates on which beneficiaries begin and/or end periods of incarceration,
directly from penal authorities. SSA also collects incarceration end dates from beneficiaries’
requests for reinstatement of Social Security benefits. SSA maintains the incarceration
information in its Prisoner Update Processing System.

CMS’s Enrollment Database (EDB) interfaces with SSA’s systems to identify incarcerated
individuals. Several applications, including CMS’s Common Working File (CWF), can then
access the dates of incarceration. The Medicare contractors use the CWF to process Part A and
Part B claims from providers.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether CMS had adequate controls to prevent and detect
improper payments for Medicare services rendered to incarcerated beneficiaries.

Scope

We identified 91,169 claims for which CMS’s data systems indicated that Medicare contractors
made $44,517,431 in payments to providers on behalf of incarcerated beneficiaries who received
services in calendar years (CY) 2009 through 2011. These claims did not contain the exception
codes. As described in “Methodology,” we further limited our review to $33,587,634 of
payments made for 75,639 Part A and Part B claims.

We did not review claims with exception codes. We will determine whether those claims were
paid in accordance with Federal requirements in a separate review.

We limited our review of CMS’s internal controls to those that directly related to our objective.

We performed fieldwork from January through June 2012.

Methodology

To accomplish our objective, we performed the following steps:

   •    We reviewed applicable Federal laws, regulations, and guidance.

   •    We held discussions with CMS officials, Medicare contractors, and providers to gain an
        understanding of how claims for incarcerated beneficiaries are processed.




                                                2
    •   We used data from CMS’s EDB (as of March 28, 2012) to identify 135,805 beneficiaries
        who had been incarcerated at some point during CYs 2009 through 2011. Our
        comparison to CMS’s National Claims History file (as of March 31, 2012) showed that
        Medicare contractors paid 91,169 claims (on behalf of 14,034 beneficiaries with
        $44,517,431 in associated payments) for which the dates of incarceration overlapped with
        the dates of service.

    •   We identified 94 penal facilities for which hospitals submitted claims both with and
        without exception codes. On the basis of conversations with hospital officials and our
        analysis of the data, we concluded that the majority of claims from any provider for
        which the beneficiary was incarcerated at 1 of these 94 facilities could have met the
        exception to Federal requirements. Therefore, we eliminated 15,530 claims (with
        $10,929,797 in payments) without exception codes for medical services rendered to
        beneficiaries who were incarcerated in the 94 facilities. 2

    •   We reviewed the remaining 75,639 claims for 11,619 incarcerated beneficiaries whose
        associated Medicare payments totaled $33,587,634.

    •   We judgmentally selected 53 inpatient claims and, for those claims, compared the dates
        on which CMS’s data systems were updated with incarceration information from SSA to
        the dates on which Medicare contractors paid providers.

    •   We discussed the results of our review with CMS officials on August 7, 2012.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                             FINDINGS AND RECOMMENDATIONS

When CMS’s data systems indicated at the time that a claim was processed that a beneficiary
was incarcerated, CMS’s controls were adequate to prevent payment for Medicare services.
Specifically, CMS had a prepayment edit that flagged claims so that Medicare contractors could
deny payments to providers when the incarceration dates and the dates of service on the claims
overlapped.

When CMS’s data systems did not indicate until after a claim had been processed that a
beneficiary was incarcerated, CMS’s controls were not adequate to detect and recoup the
improper payment. CMS will not always receive timely updates regarding incarceration
information before Medicare contractors pay providers on behalf of incarcerated beneficiaries,
and accordingly, Medicare payments totaling $33,587,634 were made to providers for services

2
  We will determine whether the 15,530 claims without exception codes were paid in accordance with Federal
requirements in a separate review.

                                                       3
rendered to 11,619 incarcerated beneficiaries during CYs 2009 through 2011. CMS did not have
policies and procedures to review incarceration information on a postpayment basis that would
have detected improper payments that the prepayment edit could not prevent. Consequently,
CMS did not notify the contractors to recoup any of the $33,587,634 in improper payments.

CMS allowed Medicare contractors to follow varying policies when processing claims with
exception codes for payment. In one instance, a contractor approved claims with exception
codes that another contractor would have denied. Therefore, providers also had varying
procedures regarding the use of exception codes when submitting claims for payment. For
example, some providers submitted claims without the exception codes, even though they knew
through sources other than CMS that the beneficiaries were incarcerated and that the
requirements for the exception codes had been met. If CMS implements a postpayment edit but
does not also standardize the claims-processing policies for contractors to follow, some providers
will then have to resubmit the claims with the exception codes added, which would create
inefficiencies and time delays at both the provider and contractor levels.

WHEN THE CENTERS FOR MEDICARE & MEDICAID SERVICES
RECEIVED INCARCERATION INFORMATION BEFORE CLAIMS
WERE PAID, IT HAD CONTROLS TO PREVENT IMPROPER PAYMENTS

When CMS’s data systems indicated that a beneficiary was incarcerated at the time that a claim
was processed, CMS’s controls, particularly its prepayment edit, were adequate to prevent
payment for Medicare services rendered to incarcerated beneficiaries.

WHEN THE CENTERS FOR MEDICARE & MEDICAID SERVICES
RECEIVED INCARCERATION INFORMATION AFTER CLAIMS
WERE PAID, IT DID NOT HAVE CONTROLS TO DETECT
AND RECOUP IMPROPER PAYMENTS

Federal Requirements

Section 1862(a)(2) of the Act states that no payment will be made under Medicare Part A or Part
B for services for which a beneficiary has no legal obligation to pay and which no other person
has a legal obligation to pay. Section 1862(a)(3) of the Act states that (with limited exceptions)
no payment will be made under Medicare Parts A or B for services paid for directly or indirectly
by a governmental entity.

Chapter 1, section 10.4, of CMS’s Medicare Claims Processing Manual states:

       CMS has established claim level editing … using data received from the Social
       Security Administration (SSA). Specifically, the data contain the names of the
       Medicare beneficiaries and time periods when the beneficiary is in such State or
       local custody. These data will be compared to the data on the incoming claims.
       CWF will reject claims where the dates from the SSA file and the dates of service
       on the claim overlap …. Contractors will, in turn, deny payment of such claims.
       [Emphasis added.]

                                                4
The Presidential memorandum entitled Finding and Recapturing Improper Payments (75 Fed.
Reg. 12119 (March 15, 2010)) directs Federal agencies, including CMS, to use every tool
available to identify and reclaim the funds associated with improper payments that the Federal
Government has made. The memorandum notes that reclaiming these funds is a critical
component of the proper stewardship and protection of taxpayer dollars. Office of
Management and Budget Circular A-123, Requirements for Effective Measurement and
Remediation of Improper Payments, also states that Federal agencies should take all necessary
steps to prevent, detect, and collect improper payments (Appendix C, part I, section L (2006)).

Improper Payments Not Detected

When CMS’s data systems did not indicate until after a claim had been processed that a
beneficiary was incarcerated, CMS’s controls were not adequate to detect and recoup the
improper payment.

CMS received information on dates of incarceration after the beginning date of incarceration.
(In one instance, CMS did not receive this information until 1 year after the beneficiary’s
beginning date of incarceration.) As a result, Medicare contractors received and processed
claims from providers before CMS received notification of the beneficiaries’ incarceration.
Contractors incorrectly but unknowingly paid providers for services rendered to incarcerated
beneficiaries. As a result, Medicare payments totaling $33,587,634 were improperly made to
providers for services rendered to 11,619 incarcerated beneficiaries during CYs 2009 through
2011.

When CMS received untimely information indicating that the beneficiaries’ periods of
incarceration overlapped with the dates of service on previously paid Medicare claims, CMS
did not notify Medicare contractors of this updated information. In the absence of such
notification, the contractors did not detect and recoup the improper payments.

For the 53 claims that we reviewed, we compared the dates on which CMS’s systems were
updated with incarceration information from SSA to the dates on which Medicare contractors
paid providers. For each of the 53 claims, we determined that CMS received the incarceration
information from SSA after the contractors had paid the claims.

Medicare contractors confirmed to us that CMS had not notified them of the beneficiaries’ dates
of incarceration for this type of claim and explained that they made the payments because the
information in CMS’s systems at the time of payment did not indicate that the beneficiaries were
incarcerated. After analyzing information from us regarding the beneficiaries’ incarceration
statuses, contractors stated that claims of this type were not allowable for payment. Contractors
stated that they would have retroactively reprocessed such claims and recouped the payments if
CMS had notified them of the incarceration information.




                                                5
The Centers for Medicare & Medicaid Services Did Not Have
Policies and Procedures To Detect and Recoup Improper Payments
on a Postpayment Basis

CMS will not always receive timely updates regarding incarceration information before
Medicare contractors pay providers on behalf of incarcerated beneficiaries. The improper
payments remained uncollected because CMS did not have policies and procedures to review
incarceration information on a postpayment basis to detect improper payments that the
prepayment edit could not prevent.

Because CMS has instructed its Medicare contractors to rely on SSA’s incarceration information
to prevent improper payments and because this information must be present for the prepayment
edit to be effective, using the same information to notify contractors of beneficiaries’ status after
claims have been paid is a reasonable extension of CMS’s efforts. Once notified, the contractors
could then detect and recoup improper payments.

Improper Payments on Behalf of Incarcerated Beneficiaries
Remained Uncollected

Because CMS did not have policies and procedures to detect improper payments, it did not notify
the Medicare contractors to recoup the improper payments. Thus, $33,587,634 in improper
payments for CYs 2009 through 2011 remained uncollected (Table).

                       Table. Improper Payments That Remained Uncollected

            Type of Claim                       2009               2010             2011              Total
    Inpatient Hospital                       $11,101,662        $5,540,831        $4,317,518       $20,960,011
    Physician and Other Services 3             2,585,410         1,728,912         1,171,098         5,485,420
    Outpatient Hospital                        2,225,114         1,351,800           868,535         4,445,449
    Durable Medical Equipment                    568,987           385,264           355,978         1,310,229
    Skilled Nursing Facility                     318,030           264,585           110,530           693,145
    Home Health Agency                           265,193           192,976           207,948           666,117
    Hospice                                       17,900             3,659             5,704            27,263
     Total                                   $17,082,296        $9,468,027        $7,037,311       $33,587,634

INCONSISTENCIES IN POLICIES FOR PROCESSING CLAIMS WOULD
LEAD TO INEFFICIENCIES IN CLAIMS SUBMISSION PROCESS

Federal Requirements

Federal requirements (42 CFR § 411.4(b)) allow Medicare payment if the State or local law
requires incarcerated beneficiaries to repay the cost of medical services. For these instances,
providers place exception codes on the claims submitted for Medicare payment.

3
 For this report, this category includes, but is not limited to, ambulance services, home health services not covered
under Medicare Part A, laboratory services, and physical therapy.

                                                          6
Inconsistent Policies for Processing of Claims for
Incarcerated Beneficiaries

CMS allowed Medicare contractors to follow varying policies when processing claims with
exception codes. For example, one contractor approved claims with exception codes that another
contractor would have denied. Substantive differences also existed between providers, which to
obtain Medicare reimbursement, undertook additional steps in the submission and resubmission
of claims based on the different policies each contractor followed.

One Medicare contractor stated that it denied claims with exception codes if the CMS databases
were not updated in a timely fashion to indicate that the beneficiary was incarcerated. In
reaction to this contractor’s policy, one provider told us that it did not use an exception code,
even when the requirements for the exception code had been met. This provider added that it
used an exception code only when resubmitting a claim that the contractor had previously
denied.

Conversely, two Medicare contractors stated that they pay claims with exception codes
regardless of the incarceration status that appears in the CMS databases. For that reason, one
provider told us that it submitted claims with the exception codes when it knew through sources
other than CMS that the requirements for the exception codes had been met.

Inefficiencies at Provider Level in Claims Submission Process

If CMS implements a postpayment edit but does not also standardize the policies for Medicare
contractors to follow when developing procedures to process claims, the providers that are not
using the exception codes (even though the requirements have been met) will then have to
resubmit the claims with the exception codes added. Further, providers may have to appeal some
of the claims when time limits for submitting claims have expired. These extra steps would
create inefficiencies and time delays at both the provider and contractor levels—conditions that
would not exist if all of the contractors consistently processed claims with the exception codes.

RECOMMENDATIONS

We recommend that CMS:

    •   ensure that Medicare contractors recoup the $33,587,634 in improper payments;

    •   implement policies and procedures to detect and recoup improper payments made for
        Medicare services rendered to incarcerated beneficiaries when incarceration information
        is received on previously paid Medicare claims;

    •   identify improper payments made on behalf of incarcerated beneficiaries after our audit
        period but before implementation of policies and procedures and ensure that Medicare
        contractors recoup those payments;


                                                7
    •   work with other entities, including SSA, to identify ways to improve the timeliness with
        which CMS receives incarceration information before Medicare contractors pay
        providers on behalf of incarcerated beneficiaries; and

    •   work with the Medicare contractors to ensure that all claims with exception codes are
        processed consistently and pursuant to Federal requirements.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, CMS concurred with our recommendations to
(a) implement policies and procedures to detect and recoup improper payments when
incarceration information is received on previously paid Medicare claims, (b) identify and
recoup improper payments made after our audit period but before the implementation of those
policies and procedures, and (c) work with other entities to identify ways to improve the
timeliness with which it receives incarceration information. CMS stated that in April 2013 it
plans to implement a process for detecting and recouping improper payments for previously paid
Medicare claims.

CMS partially concurred with our recommendation regarding the recoupment of the $33,587,634
in improper payments and did not concur with our last recommendation regarding the consistent
processing of claims with exception codes.

CMS’s comments appear as the Appendix. We have redacted an individual’s name and phone
number from CMS’s comments.

Recoupment of Improper Payments

Centers for Medicare & Medicaid Services Comments

CMS stated that it is committed to recovering overpayments we identified, but it must take into
account the cost benefit of recoupment activities, including potential appeal costs and the cost of
manually reopening these claims.

CMS added that it is possible that Medicare was the proper payer for some of the 75,639 claims
we questioned. CMS stated that our review did not determine whether the claims that we
identified as improper were for beneficiaries in penal facilities where Medicare was the proper
payer because State or local law required such beneficiaries to repay the costs of medical
services and the State or local government enforced this law.

Office of Inspector General Response

After providing its comments, CMS advised us that it had initiated recovery actions for CY 2009
claims and that it would shortly begin to recoup improper payments for CY 2010 and 2011
claims as well. We acknowledge that CMS must take into account the cost benefit for


                                                 8
recoupment activities. We encourage CMS to continue to recover these improper payments in
accordance with its policies and procedures.

We acknowledge that Medicare is the proper payer for some incarcerated beneficiaries. Federal
requirements specify that providers are responsible for indicating that Medicare is the proper
payer by placing an exception code on the claims. Accordingly, as stated in “Methodology,” we
analyzed data from CMS’s systems and eliminated from our review 15,530 claims for which
Medicare was likely the proper payer—even though providers had not used the exception code
on these claims. For the remaining 75,639 claims, we concluded that it was unlikely that
Medicare was the proper payer.

Consistent Processing of Claims With Exception Codes

CMS did not concur with our last recommendation, adding that it was not able to fully
understand the issue or fully evaluate this recommendation. CMS requested that we provide
greater specificity regarding our findings concerning inconsistencies in contractor policies for the
processing of claims with exception codes. After receiving CMS’s comments, we gave CMS the
detailed information that it had requested.

Provider Access to Incarceration Information

Our draft report also contained a finding and associated recommendation (referred to as
Recommendation 1 in CMS’s comments) regarding provider access to the incarceration
information that CMS used to prevent improper payments. CMS did not concur with that
recommendation because one of its systems gives providers access to that information. After we
issued our draft report, CMS gave us supplemental information regarding provider access.
Specifically, CMS said that all providers can make beneficiary eligibility inquiries before filing
claims, either through the Medicare contractors or through the Health Insurance Portability and
Accountability Act (HIPAA) Eligibility Transaction System (HETS). CMS noted that for three
specific reasons, including cases in which the beneficiary has been incarcerated, the HETS
informs providers of a beneficiary’s ineligibility for Medicare benefits without giving the
specific reason for that ineligibility.

After reviewing CMS’s comments regarding provider access to incarceration information and
after getting further information from CMS, we removed that finding and recommendation from
this report.




                                                 9
APPENDIX
                                                                                                                      Page 1 of 4


APPENDIX: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS



    /.p-.~


       ~             	
(
    ,-sr        DEPARTMENT OF H EALTH & HUMAN SERVICES

                                                                                            Admi"islr!dor
                                                                                            Wl1StlitIg1on, DC 20201




             DATE:
                             NOV I 5 1011
             TO; 	          Danie l R. Le vinson
                                  ,
                            Inspector Gene ral

             FROM:                       ,inislrator
                                              "
             SUBJECl': 	 Office of Inspector General (OIG) Oraf! Report : " Medicare Improperly Paid
                         Prov iders Millions of Dollars for Incarcerated Beneficiaries for Calendar Years
                            2009 Through 201 \" (A-07- l 2-OJ I 13)


             The Cemcrs for Medicare & Med icaid Serv ices (eMS) appreciates the o pportunit y to review and
             comment on DIG Draft Report enti tled, " Medicare Improper ly Paid Providers Mi ll ions of
             Dollars for Incarce rated Beneficiaries for Calendar Years 2009 Through 20 11,. (A-07- 12-OJ I 13).
             The objective of Ihis stud y was \0 detennine whether eMS had adequate co ntro ls to preve nt and
             detect imprope r payments for Medicare services rendered to inca rce rated beneficiaries .

             Medicare does not ge nerall y pay for se rvices rendered to incarcerated benefici aries. However,
             federal requ ireme nts all ow Medicare payment if state or local law requires incarcerated
             be neficiaries 10 repay the cost of medical services. Health ca re providers indicate this exception
             by placing a specific code on the claims fo r Medi care payme nt. OIG re fers to this code as
             "exception code:'

             The Social Security Administration (SSA) is eMS's primary so urce of information about
             incarcerated beneficiaries. Genera ll y, SSA collects informatio n, such as the names of
             beneficiaries and the dales on which be neficiari es begin and/or end periods of incarce ratio n,
             directly from penal authorit ies. SSA also collects incarceration end dates from the beneficiaries'
             requ ests for reinstatement of Social Securit y be nefits. With this information, eMS determines:
             ( I) which be neficiaries are, or have been, incarcerated; and (2) th e period of incarceration during
             which Medicare w ill nOl pay for health care services provided to these individuals, un less the
             be neficiar y qual ifies fo r Ihe excep tion.

             O IG Reco mmend a tion I I

             The OIG recomme nds thai e MS change the timing by whic h it gra nts prov ide rs access to
             beneficiaries' incarcerat ion information, so that provide rs have access to that informatio n before
             they su bmit claims to Mcdicare contractors instead of gaining that access when claims are
             denied.



             IOlTice of Inspector Gmtl'al Note - This section is not applicable because the finding and
             reconunendatioo referred to by the auditee are not included in this report.
                                                                                                                                      Page 2 of 4




Page 2 - Daniel R. Leve nson



eMS Respon se

The e M S nonconcurs with Ihe recom mendation. This non-co ncurre nce is base d upon incorrect
infonnation that Medicare providers do not have access to infonnatio n regarding beneficiaries'
ineligibility for Medicare benefi ts prior to submilling a claim. Medicare providers do have
access to this information for beneficiaries and have had such access for many years, including
those years included in the DIG audit. All providers are able 10 make beneficiary eligibility
inquiries in advance o f filing a clai m either through Ihe Medicare Administrati ve Contractors or
through Ihe HIPAA Eligi bility T ra nsact ion System (BETS).' While Ihe provider will not be told
Ihe reason for ineligibility (also known as the period of inact ivity), the provider has access to the
beginning and end dales for the period of inactivity and that the reason behind the inactivity is
for o ne o f the three fo llowing reasons: (1) The Medicare beneficiary has been classified as an
illegal alien; (2) The Medicare bene ficiary has been deported; or (3) The Medicare beneficiary
has been incarcerated. Therefore, the provider has info rmatio n about the period of inactivity and
the re levant dates p ri or to submitting a claim.

DIG Recommendation 2

The O IG recommends that CMS ensure that Medicare contractors recoup the $33,587,634 in
improper payments.

eMS Response

The e MS partiall y concurs wit h the recommendation 10 recoup $33,587,634 of improper
payments. CMS is committed 10 collecting ove rpayments identified in this DIG report. In
recovering overpayments, e MS must take into accou nt the respeclive cost benefit o f recoupment
activities, including potential appeal costs and efforts to manually reope n, reprocess, and IflIck
these claims.

The O[G identified 9 1, 169 claims for incarcerated benefic iaries totaling $44,5 17,431 in
Medicare payme nts. The D IG removed 15,300 claims that were billed wit hout exception codes




IL IThe HETS Ihal CMS main13,,,,, for providers 10 submit be""fid.,y eligibilit y uMSOCIion.that lII<et tile ASC X12 270.271
HIPM eligibility uIII$IIC1ion requirements does ,ekase informalion thai will nOliry a pro.ider that tile be"" rociary is ineligible
for Med ica", hcnefits. n.e language in the 270·271 Impleme ntalion Guide found at hl!p '/Ayww emS goyIBeSC illcb,SlaliS!ics'
Data·and.Srstcm5lC MS· IIl(Qlmal jon.llihnqlogylHETSHcln/DownloadYHETSZ7Il2Z1Com!1an;onGujdeUpromjog pd f notifies
providers what information 10 expect on the 271 elig.ibi lity "'Sf'Onse. II reads as folklw",

         The H£TS 2701271 IppliC<dion will retum. 2110C loop with tltm~nt liROI - ~6" (lnacli.e) along Wilh a DTP (dale
         and lilll< per;od) segment con13ining beginning and ..d d.le. for IIIe periodof il\aclivily when an i""ividual entided to
         Medicare is ineligible 1m Medicor. benefits o""r a pelMJd of time for anyone tile following reasons:

          • The Medicll. Ikncficiary h"" been classi fied as an ilkgaJ ali"" in Ihe United Slales.
          • Th. Medical' Ikn.r.dary has been deponed !Tum Ihe United Stat<:$.
          • The Med icare Bcner~iary has be<:n incara:J3!cd .
          • lIIe>tc: Infolmal ion specifying the "'OlSOn 101 the period of ineligibilily will nol be released.
                                                                                                       Page 3 of 4




Page 3 - Daniel R. Levenson


because these claims were   a.'l~ialed   with 94 penal facilities where a provider had previously
used an exception code for a beneficiary al th at facility. However, DIG did not dele nnine if the
claims associated w ith penal facilities that remained in ils database were in a jurisdiction where
the Slate or local law requires incarcerated beneficiaries 10 repay the costs of medical services.
The refore, it is pos...~ ibl e thai some of the 75.639 claims OIG iden tified as havi ng im proper
payments are for be neficiaries in penal fa cilities where Medicare is the proper payer because the
Stale or local law requ ires the beneficiary \0 repay the OOslS of medical services and the State or
local gove rllmc ll\ enforces th is law.

OIG Recommendation 3

The GIG recommend~ that e MS implement policies and procedures to de tect and recoup
improper payments made for Medicare services re ndered to incarcerated beneficiaries when
incarceration information is received on previously paid Medicare claims.

e MS   Respon ~e


The eMS concurs with the recommendation and has developed more formalized contractor
instructions to add ress these matters that w i!! be effective Apr il 2013. This guidance will
implement a process to de tect and recoup imprope r payments made for Medi care services
furnished to incarcerated beneficiaries.

QIG R«ommendation 4

The OIG recommends that e MS identify improper payments that were made on behalf of
incarcerated benefici aries after our aud it period but before implementation o f pol iCies and
procedures and ensure that Medicare contractors recoup those payments.

eMS Response

The eMS concurs w ith the recommendati on and is developing a strategy to automate th e
identi fication of improper payments made after the OIG' s audit pe riod and before the IUR
process, rioted above, is implemented. eMS projects th at recoupment e fforts w ill, ten tatively,
begin in Jul y 2013.

OIG Recom mendation 5

T he O IG recommends that eMS work wit h other entities, including SSA, to identify ways 10
improve the timel iness w ith which e MS receives incarceration information before Medicare
contractors pay providers on behalf of incarcerated benefici ari es.

eMS ResQonse

The eMS concurs with the recommendation to work with other en tities, including SSA, to
iden tify ways to imp rove the timing and frequency of eMS' receipt of data on incarcerated
beneficiaries to help prevent Medicare payments for these individuals . e MS uses incarceration
                                                                                                        Page 40f4




Page 4 - Daniel R. Levenson

data transm itted by the SSA to adjud icate Medicare claims; therefore, we w ill in vestigate ways
to improve the timeliness and frequency of OUT data transmissions from SSA. In this regard, it
wou ld be he lpful to receive O[G' s detailed findings regard ing the length of time claims were
paid prior to incarcerated data being available on eMS' systems.

While eMS agrees that time ly receipt of incarcerated data is crucial to accu rate claims
processing, we a lso recognize thai de lays by correctio nal facilities in reporting this information
will impact the utility of a more frequent report ing requirement. If SSA does not receive timely
incarceration data from correctional facilities, the n increasing the freque ncy of the data exchange
between SSA and eMS may not prevent payment of all claims from incarcerated beneficiaries.
In such cases, the DIG ' s other recommendations for eMS to implemcnt policies and procedures
!O detect and recoup improper payments made for Medicare serv ices rendered to incarcerated
beneficiaries would help ensure that improper payments are corrected and funds restored to the
Medicare trust fu nds.

OIG Recommendation 6

The O IG recomme nds that eMS work with the Medicare con tractors to ensure that all clai ms
wit h exception codes are processed consistently and pursua nt to Federal requireme nts.

eMS Response

The eMS nonconcurs with this recommendation because th e D IG 's repo rt does not describe the
problem in su(ficient detail to enable eMS to full y understand the issue nor to full y evaluate
OIG's recommendation. First, with respect to what DIG terms an "exception code," eMS
assumes that DIG is referring to the use of condition code " 63" and modifier "OJ" that are
intended to be used on claims for incarcerated beneficiaries whose claims may be payable under
the exception prov isions or 42 CFR section 4 11.4(b). Neve rthe less, we ask th at DIG co nfirm
this assumpt ion. More importantl y, CMS asks OTG for grea ter specificity regarding its findings
concerning contractors' policies and practices (and inconsistencies detected) from the use of
"""""p,";oo codes" in processing claims for incarcerated beneficiaries to ensure
                    are correctl y targeted and fully effective. T he OIG m"y '~o""
                      provide this addi tional information. "

The eMS appreciates O[G's efforts in working with us to help identify billing issues associated
with payments made to or on be half of beneficiaries who are incarcerated on the date o f service
and look forward to working wi th D IG in the future.




"OlTice of Inspector General Note - We redacted the name and phone number of the CM:S
official frOOl eMS's conunents.
